                                                                                        C.S. Department of Honleland Security
                                                                                        3003 Chamblee-Tucker Road
                                                                                        Atlanta, Georgia 30341




                                                       July 6, 2005

MEMORANDUM

TO:              Kenneth 0 . Burris, Jr.


FROM:
                 Field Office Director

SUBJECT:         Lowndes County, Mississippi
                 FEMA Disaster No. 1360-DR-MS
                 Audit Report No. DA- 19-05


The Office of Inspector General audited public assistance funds awarded to Lowndes County,
Mississippi. The objective of the audit was to determine whether the County accounted for and
expended FEMA funds according to federal regulations and FEMA guidelines.

The County received an award of $2.6 million from the Mississippi Emergency Management
Agency, a FEMA grantee, for debris removal, emergency protective measures, and restoration of
facilities damaged as a result of severe storms in February 2001. The award provided 75 percent
FEMA funding for 3 large projects and 4 small projects1. Audit work was limited to the $2,529,025
awarded and claimed under the 3 large projects.

The audit covered the period February 2001 to April 2003. During this period, the County received
$1,896,769 of FEMA funds under the 3 large projects.

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to generally accepted government auditing standards. The audit included tests of the
County's accounting records, a judgmental sample of expenditures, and other auditing procedures
considered necessary under the circumstances.

We determined that the County accounted for and used FEMA funds according to federal regulations
and FEMA guidelines. County officials were informed of the audit results on June 24, 2005. Since
this report contains no recommendations, a response is not required.

Should you have any questions concerning this report, please contact David Kimble or me at (770)
220-5242.



' Federal regulations in effect at the time of the disaster set the large project threshold at $50,600.
